No. _______

IN THE

Supreme Court of the United States
___________
JAMES HUFF, individually and on
behalf of others similarly situated,
Applicant,
v.
TELECHECK SERVICES, INC.;
TELECHECK INTERNATIONAL INC.;
FIRST DATA CORPORATION,
__________

Respondents.

On Application for Extension to File a Petition for Writ of Certiorari
to the United States Court of Appeals for the Sixth Circuit
__________
APPLICATION TO JUSTICE KAGAN FOR AN EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI
__________
MARTIN D. HOLMES
Counsel of Record
DICKINSON WRIGHT PLLC
Fifth Third Center, Suite 800
424 Church Street
Nashville, TN 37219
(615) 244-6538
mdholmes@dickinsonwright.com
Counsel for Applicant
James Huff

To the Honorable Elena Kagan, as Circuit Justice for the United States
Court of Appeals for the Sixth Circuit:
James Huff respectfully asks for a 60-day extension of time in which to file a
petition for writ of certiorari from a final judgment of the United States Court of
Appeals for the Sixth Circuit, up to and including December 16, 2019. See Sup. Ct.
R. 13.5. A petition for writ of certiorari is currently due on October 17, 2019, which
is ninety days from July 19, 2019, when the Sixth Circuit denied Huff’s petition for
rehearing en banc. This request comes more than 10 days in advance of the current
deadline. This Court will have jurisdiction over the petition for writ of certiorari
under 28 U.S.C. § 1254(1).
JUDGMENTS BELOW
The petition for writ of certiorari will request this Court’s review of the
judgment of the United States Court of Appeals for the Sixth Circuit in Case No. 185438, James Huff v. Telecheck Services, Inc., et al, decided on May 3, 2019. The
Sixth Circuit’s majority and dissenting opinions, along with the denial of Huff’s
petition for rehearing en banc, are attached.
BACKGROUND
This is a putative class action alleging that TeleCheck, a check verification
company, systematically violated § 1681g of the Fair Credit Reporting Act by
omitting linked information from required disclosures to consumers, the substance
of which TeleCheck relies on to make credit determinations about those consumers.
In Huff’s case, the omitted information included bank accounts that are erroneously
linked to him. In a split decision, the Sixth Circuit held that Huff had not suffered a

concrete injury, as needed to confer Article III standing, because the erroneously
linked accounts that TeleCheck failed to disclose have never been associated with
any debt and, consequently, the presence of those accounts in Huff’s file have never
resulted in a check decline. In other words, the Sixth Circuit reasoned, Huff could
not have avoided any additional consequential harm had he received his entire
credit file as statutorily required.
This case exemplifies the confusion among lower courts following Spokeo, Inc.
v. Robins, 136 S. Ct. 1540 (2016), with respect to both informational and other types
of intangible injuries. This Court in Spokeo recognized that an informational injury,
in which a person is denied information to which he is statutorily entitled, can be
concrete in its own right and sufficient to confer Article III standing. But Spokeo did
not involve an informational injury and ultimately announced a general test for
evaluating the concreteness of intangible injuries: whether the plaintiff has alleged
“a bare procedural violation, divorced from any concrete harm,” or whether the
procedural violation alleged “entail[s] a degree of risk sufficient to meet the
concreteness requirement.” Id. at 1549-50.
In the years since Spokeo, lower courts have struggled to apply this Court’s
teachings consistently. Whereas some courts recognize informational injuries under
consumer protection statutes as sufficiently concrete, the Sixth Circuit here
suggested that informational injuries must hinder participation in the political
process. And whereas some courts ask whether the deficient disclosure of
information deprived the plaintiff of an opportunity to exercise a right conferred by

2

statute, the Sixth Circuit here went one step further by asking whether exercising
the right would have prevented additional consequential harm to Huff. In short, the
Sixth Circuit not only failed to recognize this case as involving a concrete
informational injury, but also imposed a requirement of additional consequential
harm that Spokeo rejected. The dissent would have held that Huff had standing
under Spokeo because the violation posed a risk of harm to a concrete interest that
Congress sought to prevent through the FCRA—an inaccurate credit report based
on bank accounts that are not his.
Guidance is needed on this frequently recurring issue of exceptional
importance, and this case offers an ideal vehicle to provide that guidance.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for writ of certiorari should be extended by 60 days,
up to and including December 16, 2019, for the following reasons:
1.

Undersigned counsel is the lead attorney in 11 pending class actions,

many which are national in scope, that have demanded substantial time and travel
since July 19, 2019 and will demand substantial time and attention in the coming
months. An extension of time will allow undersigned counsel to devote the
appropriate amount of time and attention to the petition for writ of certiorari while
not compromising his duties with respect to other pending matters.
2.

Undersigned counsel is seeking to partner with an attorney who has

an established Supreme Court practice. Discussions with this attorney are ongoing.
An extension of time is needed to pursue this opportunity and collaborate on the
petition for writ of certiorari if an agreement to partner on the petition is reached.
3

3.

The Courts of Appeals, while divided, are not cleanly split on how to

apply Spokeo, and an examination of post-Spokeo decisions reveals a fractured and
confused state of the law. The complexity of the issues on which the petition will be
based justifies an extension of time.

CONCLUSION
For these reasons and good cause shown, Applicant James Huff respectfully
requests that this Court grant his application for an extension of time to file a
petition for writ of certiorari.

submitted,

Counsel of Record
DICKINSON WRIGHT PLLC

Fifth Third Center, Suite 800
424 Church Street
Nashville, TN 37219
(615) 244-6538
mdholmes@dickinsonwright.com
Counsel for Applicant
James Huff

October 2, 2019

4

